U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

August 24, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Shakeel Kahn v. United States of America,
S.Ct. No. 21-5261
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 26,
2021, and placed on the docket on July 29, 2021. The government’s response is due on August
30, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including September 29, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-5261
KAHN, SHAKEEL
USA

BEAU B. BRINDLEY
LAW OFFICES OF BEAU B. BRINDLEY
53 WEST JACKSON BOULEVARD
SUITE 1410
CHICAGO, IL 60604
312-765-8878
BBBRINDLEY@GMAIL.COM

